              Audit Report



 Representative Payees Residing in
Foreign Countries or U.S. Territories
   Who Represent Beneficiaries
   Residing in the United States




      A-02-13-13048 | November 2013
MEMORANDUM


Date:      November 8, 2013                                                   Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Representative Payees Residing in Foreign Countries or U.S. Territories Who Represent
           Beneficiaries Residing in the United States (A-02-13-13048)

           The attached final report presents the results of our audit. Our objectives were to determine
           whether (1) representative payees residing in foreign countries or U.S. Territories used payments
           for beneficiaries residing in the United States in the beneficiaries’ best interests and (2) the
           Social Security Administration effectively monitored beneficiaries whose representative payees
           resided in foreign countries or U.S. Territories.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Representative Payees Residing in Foreign Countries or U.S.
Territories Who Represent Beneficiaries Residing in the
United States
A-02-13-13048
November 2013                                                                Office of Audit Report Summary

Objectives                                  Our Findings

To determine whether                        We were not fully able to determine whether representative payees
(1) representative payees residing in       residing in foreign countries or U.S. Territories used payments for
foreign countries or U.S. Territories       beneficiaries residing in the United States in the beneficiaries’ best
used payments for beneficiaries             interests. In addition, the address information in SSA’s records for
residing in the United States in the        many of the beneficiaries we reviewed appeared to be inaccurate.
beneficiaries’ best interests and (2) the
Social Security Administration (SSA)        ·   We were unable to contact the representative payees for 16 of
effectively monitored beneficiaries             the 89 beneficiaries we reviewed. Therefore, we could not
whose representative payees resided in          determine the beneficiaries’ residences and the appropriateness
foreign countries or U.S. Territories.          of their representative payees’ management of benefit
                                                payments.
Background
                                            ·   Sixty of the 89 representative payees reported that the
Some individuals cannot manage or               beneficiaries they represented were residing with them in
direct the management of their                  foreign countries, not the U.S. address in SSA’s records.
finances because of their youth or
mental and/or physical impairments.         ·   Six of the 89 representative payees reported that the
Congress granted SSA the authority to           beneficiaries they represented were residing in the United States
appoint representative payees to                while they were residing in foreign countries.
receive and manage these
beneficiaries’ benefit payments.            ·   As a result of changes reported by the representative payees
Representative payees are responsible           after we began our audit, the remaining seven beneficiaries no
for managing benefits in the                    longer appeared to reside at a U.S. address while their
beneficiary’s best interests.                   representative payees resided in foreign countries.

SSA should consider all factors in          We also found that five of the representative payees did not
selecting a representative payee,           complete required accounting reports, but SSA only took corrective
including the applicant’s relationship      action in three of the five cases. SSA also did not send accounting
to the beneficiary; the applicant’s         reports to five other representative payees.
interest in the beneficiary’s well-being;
and whether the applicant has custody       Our Recommendations
of, or lives in close proximity to, the
beneficiary.                                We made five recommendations including that SSA confirm and
                                            update the address information for beneficiaries who reportedly
                                            reside in foreign countries with their representative payees, contact
                                            the representative payees we were unable to locate, and obtain the
                                            outstanding accounting reports.

                                            SSA agreed with our recommendations.
TABLE OF CONTENTS
Objectives ........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................3
     Representative Payee and Beneficiary Contact Information in SSA’s Records ........................4
           Representative Payees Could Not Be Located.....................................................................5
           Beneficiaries Residing in Foreign Countries with Their Representative Payees ................5
           Beneficiaries Were Residing in the United States, and Their Representative Payees Were
           Residing in Foreign Countries or U.S. Territories ...............................................................6
     Beneficiary Resident Address in SSA’s Systems ......................................................................7
     Representative Payee Monitoring Procedures ...........................................................................8
Conclusions ......................................................................................................................................9
Recommendations ............................................................................................................................9
Agency Comments ...........................................................................................................................9
Other Matter ...................................................................................................................................10
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Agency Comments .............................................................................................. B-1
Appendix C – Major Contributors.............................................................................................. C-1




Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)
ABBREVIATIONS
C.F.R.               Code of Federal Regulations

FEQ                  Foreign Enforcement Questionnaire

MBR                  Master Beneficiary Record

OA                   Office of Audit

OASDI                Old-Age, Survivors and Disability Insurance

OIG                  Office of the Inspector General

POMS                 Program Operations Manual System

RPR                  Representative Payee Report

RPS                  Representative Payee System

SSA                  Social Security Administration

SSI                  Supplemental Security Income

SSR                  Supplemental Security Record

U.S.C.               United States Code




Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)
OBJECTIVES
The objectives of our review were to determine whether (1) representative payees residing in
foreign countries or U.S. Territories used payments for beneficiaries residing in the United States
in the beneficiaries’ best interests and (2) the Social Security Administration (SSA) effectively
monitored beneficiaries whose representative payees resided in foreign countries or U.S.
Territories.

BACKGROUND
Some individuals cannot manage or direct the management of their finances because of their
youth or mental and/or physical impairments. Congress granted SSA the authority to appoint
representative payees to receive and manage these beneficiaries’ benefit payments. 1 A
representative payee may be an individual or an organization. SSA selects representative payees
for Old-Age, Survivors and Disability Insurance (OASDI) 2 beneficiaries and Supplemental
Security Income (SSI) 3 recipients when it serves the beneficiaries’ interests.

The Social Security Act requires that SSA exercise care when selecting a representative payee 4
and monitoring a representative payee’s performance. 5 SSA policy instructs employees to select
the applicant best suited to serve as a representative payee. 6 While SSA policy contains a
preference list, 7 the Agency instructs employees to consider all factors, including the applicant’s
relationship to the beneficiary; the applicant’s interest in the beneficiary’s well-being; and
whether the applicant has custody of, or lives in close proximity to, the beneficiary. 8

Representative payees are responsible for managing benefits in the beneficiary’s best interest 9
and for keeping records and reporting how they spend benefits. 10 For beneficiaries residing in
the Unites States, representative payees are required to complete an annual Representative Payee



1
    Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1)(A) and 1383(a)(2)(A)(ii).
2
 The OASDI program provides benefits to qualified retired and disabled workers and their dependents as well as to
survivors of insured workers. Social Security Act § 201 et seq., 42 U.S.C. § 401 et seq.
3
 The SSI program provides payments to individuals who have limited income and resources and who are age 65 or
older, blind, or disabled. Social Security Act §1601et seq.; 42 U.S.C. § 1381 et seq.
4
    Social Security Act §§ 205(j)(2) and 1631(a)(2)(B), 42 U.S.C. §§ 405(j)(2) and 1383(a)(2)(B).
5
    Social Security Act §§ 205(j)(3)(A) and 1631(a)(2)(C)(i), 42 U.S.C. §§ 405(j)(3)(A) and 1383(a)(2)(C)(i).
6
    SSA, POMS, GN 00502.105 A. (August 2, 2011).
7
    SSA, POMS, GN 00502.105 B. and C. (August 2, 2011).
8
    SSA, POMS, GN 00502.105 A. and E. (August 2, 2011).
9
 20 C.F.R. §§ 404.2035 and 416.635. In this report, we use the term “benefits” to refer to OASDI benefits and SSI
payments. Likewise, we use the term “beneficiaries” to refer to OASDI beneficiaries and SSI recipients.
10
     20 C.F.R. §§ 404.2065 and 416.665.



Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)               1
Report (RPR). SSA uses RPRs to monitor how representative payees spend and/or save benefits
on the beneficiaries’ behalf and identify situations where representative payment may no longer
be appropriate or the representative payee may no longer be suitable.

For beneficiaries living abroad, representative payees are also required to report annually on the
use of benefits. In May or June of each year, SSA sends representative payees a Foreign
Enforcement Questionnaire (FEQ), SSA-7161, Report to United States Social Security
Administration by Person Receiving Benefits for a Child or for an Adult Unable to Handle
Funds.

We reviewed SSA’s Master Beneficiary Record (MBR), Supplemental Security Record (SSR),
and Representative Payee System (RPS) and identified beneficiaries and recipients who appeared
to be residing in the United States but whose representative payees appeared to be residing in a
foreign country. We found that 207 OASDI beneficiaries had a U.S. address in RPS, while their
representative payees had foreign addresses in the MBR. In addition, we found 12 SSI recipients
and 22 concurrent beneficiaries who also had U.S. addresses while their representative payees
had foreign addresses listed in the SSR. As a result, we identified 241 beneficiaries 11 who
appeared to be residing at a U.S. address but whose representative payees appeared to be residing
in foreign countries. 12 See Appendix A for our scope and methodology.

To limit travel expenses, we reviewed 89 of the 241 beneficiaries 13 who resided within 100 miles
of an Office of Audit (OA) location. 14 We attempted to interview their representative payees by
telephone to confirm their addresses and the addresses of the beneficiaries they represented.
When we were unable to contact the payees, we attempted to contact the beneficiaries. We also
used SSA records to determine whether SSA had updated the address information between the
time we selected our sample and the time we attempted to contact the beneficiaries and their
representative payees. When we contacted someone, we requested whether we could visit the
residences of the beneficiaries living in the United States to observe their living conditions.




11
     The 241 beneficiaries consisted of 207 OASDI beneficiaries, 12 SSI recipients, and 22 concurrent beneficiaries.
12
  We included representative payees who resided in U.S. territories, such as Puerto Rico and American Samoa, in
our population of representative payees residing in foreign countries.
13
     The 89 beneficiaries consisted of 81 OASDI beneficiaries and 8 concurrent beneficiaries.
14
  We would expect that the characteristics of those beneficiaries residing within 100 miles of an OA location would
not differ from those who reside outside 100 miles of an OA location. OA maintains offices in Baltimore,
Maryland; Boston, Massachusetts; New York, New York; Philadelphia, Pennsylvania; Atlanta, Georgia;
Birmingham, Alabama; Chicago, Illinois; Arlington, Virginia; Dallas, Texas; Kansas City, Missouri; Denver,
Colorado; and Richmond, California. We did not attempt to interview the representative payees of 152 beneficiaries
who lived more than 100 miles from an OA office. SSA records indicate that 126 are still in current pay status,
receiving $86,153 in monthly benefits as of May 2013.



Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)                  2
RESULTS OF REVIEW
We were not fully able to determine whether representative payees residing in foreign countries
or U.S. Territories used payments for beneficiaries residing in the United States in the
beneficiaries’ best interests. In addition, the address information in SSA’s records for many of
the beneficiaries we reviewed appeared to be inaccurate. Below are the results of our attempted
contacts with the representative payees of the 89 beneficiaries who appeared to reside in the
United States but whose representative payees appeared to reside in a foreign country based on
address data in SSA’s systems.

·      We were unable to contact the representative payees for 16 of the 89 beneficiaries. When we
       could not contact the representative payees, we attempted to contact the beneficiaries and
       were similarly unable to locate them.

·      When we spoke with 60 of the 89 representative payees 15 through international telephone
       calls, they reported that the beneficiaries they represented were residing with them in foreign
       countries despite the beneficiaries’ U.S. address information in SSA’s records.

·      When we spoke with another 6 of the 89 representative payees through international
       telephone calls, they reported that the beneficiaries they represented were residing in the
       United States while they were residing in foreign countries.

·      As a result of changes reported by the representative payees after we began our audit, the
       remaining seven beneficiaries no longer appeared to reside at a U.S. address while their
       representative payees resided in foreign countries.

Per SSA policy, 16 SSA should have obtained accounting reports 17 for 83 of the 89 representative
payees within the 12 months preceding the start of our audit. 18 SSA obtained the accounting
reports from 73 of the representative payees. Five representative payees did not complete the
accounting reports, but SSA only took corrective action to suspend the beneficiaries’ payments
in three of the five cases. SSA also did not comply with its policy to send accounting reports to
five other representative payees.




15
  In two cases, through the representative payees’ telephone numbers listed in SSA records, we actually spoke with
the beneficiary and the custodial father of a beneficiary who was not the beneficiary’s representative payee,
respectively.
16
     SSA, POMS, GN 00605.001 B.1. (May 15, 2013), GN 00608.010 A. (January 29, 1996).
17
     We use the term “accounting reports” to refer to the RPR and the FEQ.
18
  SSA was not required to send six representative payees an accounting report because they had served as
representative payees for fewer than 12 months at the time of our audit.



Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)            3
Representative Payee and Beneficiary Contact Information in SSA’s
Records
We attempted to interview the representative payees of the 89 beneficiaries we reviewed. Per
SSA’s records, 80 of the representative payees lived in a country that was not contiguous to the
continental United States. For example, the representative payees lived in South Africa, Poland,
or Pakistan. The remaining nine representative payees resided in Mexico or Canada. While
these representative payees resided in a country that neighbored the United States, they lived, on
average, over 1,000 miles from the beneficiaries they represented per SSA’s records.

We sent letters to the foreign addresses listed in SSA’s records for the representative payees
asking them to contact us. We also attempted to contact the representative payees by calling
their international telephone numbers in SSA’s records. We found the following.

·      We were unable to contact the representative payees for 16 of the 89 beneficiaries. They did
       not respond to the letters we mailed and the telephone numbers for these representative
       payees in SSA’s records were either disconnected or no longer in use by the representative
       payees. When we could not contact the representative payees, we attempted to contact the
       beneficiaries at their addresses and telephone numbers listed in SSA’s records and were
       similarly unable to locate them.

·      When we spoke with 60 19 of the 89 representative payees 20 through international telephone
       calls, they reported that the beneficiaries they represented were residing with them in foreign
       countries despite the beneficiaries’ U.S. address information in SSA’s records.

·      When we spoke with another 6 of the 89 representative payees through international
       telephone calls, they reported that the beneficiaries they represented were residing at the
       U.S. address in SSA’s records, while they were residing in foreign countries.

·      As a result of changes reported by the representative payees after we began our audit, the
       remaining seven beneficiaries no longer appeared to reside at a U.S. address while their
       representative payees resided in foreign countries. We were able to determine that five
       beneficiaries were residing in the United States with their representative payees, one
       beneficiary was residing in a foreign country while the representative payee was residing in
       the United States, and one beneficiary had requested to manage his own benefits.




19
     The individuals represented by the 60 representative payees were all OASDI beneficiaries.
20
  In two cases, through the representative payees’ phone numbers listed in SSA records, we spoke with a
beneficiary and a beneficiary’s custodial father who was not the beneficiary’s representative payee, respectively.



Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)                4
Representative Payees Could Not Be Located
After several attempts, we were unable to contact the representative payees for 16 beneficiaries. 21
The telephone numbers in SSA’s records for 13 representative payees had been disconnected or
no longer belonged to the representative payees. Three other representative payees did not have
a telephone number in SSA’s records and did not respond to our written requests for interviews.
When we could not contact the representative payees, we attempted to contact the beneficiaries
and were similarly unable to locate them. As such, we could not determine whether the
representative payees properly managed the beneficiaries’ benefit payments. As of May 2013,
SSA’s records indicated that 13 of the 16 beneficiaries were receiving $8,618 in monthly
benefits or $103,416, annually.

Two of the 16 beneficiaries also receive SSI payments. Generally, SSI recipients are ineligible
for payments once they are absent from the United States for 30 consecutive days. 22 SSI
recipients are required to report events and changes of circumstances that may affect their
eligibility and payment amounts—including departures from the United States. 23 Because we
were unable to contact the representative payees, we could not determine whether the recipients
still resided in the United States. We referred these recipients to SSA in June 2013 for
appropriate action. 24

Beneficiaries Residing in Foreign Countries with Their
Representative Payees
The representative payees for 60 beneficiaries reported that they were living with the
beneficiaries in foreign countries. (In two cases, through calling the representative payees’
telephone numbers in SSA’s records, we spoke with a beneficiary and the custodial father of
another beneficiary who was not the beneficiary’s representative payee, respectively. 25)
However, SSA’s records indicated the 60 beneficiaries had domestic residences while the
representative payees’ addresses were in foreign countries.

The beneficiary and the custodial father of another beneficiary we spoke with reported that their
representative payees did not manage funds properly for the beneficiaries in foreign countries.
In both cases, we attempted to contact the representative payees with the telephone numbers
listed in SSA’s records, but we were unable to speak with the representative payees.


21
     The 16 beneficiaries consisted of 14 OASDI beneficiaries and 2 concurrent beneficiaries.
22
  Social Security Act § 1611(f), 42 U.S.C. § 1382(f); see also 20 C.F.R. § 416.215. There are exceptions for certain
blind or disabled children of military parents stationed overseas and students who are temporarily abroad for study
purposes. See also 20 C.F.R. § 416.216; SSA, POMS, SI 00501.415 (June 12, 2006) and SI 00501.411
(June 14, 1996).
23
     20 C.F.R. § 416.701; 20 C.F.R. §§ 416.708(m) and (n).
24
     We also forwarded a list of the cases associated with our other findings.
25
     We were unable to contact the representative payees of these two beneficiaries.



Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)              5
In one case, the beneficiary stated the representative payee, who also resided in the same foreign
country, had not contacted him for 3 months. The beneficiary also reported that the
representative payee commingled benefits received on the beneficiary’s behalf with the
representative payee’s own funds.

In the other case, the father of a 4-year-old beneficiary stated that he had custody of the
beneficiary and the representative payee, who was the beneficiary’s mother, did not use the
benefits she received to meet the beneficiary’s needs. Since the beneficiaries resided in foreign
countries, we were unable to visit them. Therefore, we advised the beneficiaries to contact their
Foreign Service Posts to resolve the issue. We referred both of these cases to SSA in June 2013
for appropriate action. In both cases SSA appointed a new representative payee.

Beneficiaries Were Residing in the United States, and Their
Representative Payees Were Residing in Foreign Countries or U.S.
Territories
The representative payees of six beneficiaries confirmed that the beneficiaries they served were
residing at the U.S. addresses in SSA’s records. The representative payees, who were residing in
foreign countries, are the beneficiaries’ family members.

         Table 1: Beneficiaries Were Residing in the United States, and Their Representative
                             Payees Were Residing in Foreign Countries
                   Residence 26 of                      Residence of                   OIG Beneficiary Visit
                Representative Payee                    Beneficiary                        (Yes / No)
     1             Ontario, Canada                Tauton, Massachusetts                           No
     2           St. George, Bermuda            South Orange, New Jersey                         Yes
     3          San Juan, Puerto Rico              Camden, New Jersey                             No
                Pago Pago, American
     4                                             San Mateo, California                         Yes
                      Samoa
     5           Nova Scotia, Canada             Plymouth, Massachusetts                         Yes
     6        British Columbia, Canada                Napa, California                           Yes

The representative payees for four of the six beneficiaries reported they maintained
communication with the beneficiaries by telephone. The representative payees also stated that
they paid the beneficiaries’ monthly bills and kept documentation of expenditures to support
whether funds were used to pay for beneficiaries’ needs. Three of the four representative payees


26
  We included representative payees who resided in U.S. territories, such as Puerto Rico and American Samoa, in
our population of representative payees residing in foreign countries.



Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)             6
reported visiting the beneficiaries at least twice a year; the other representative payee stated he
visited the beneficiary annually. All four representative payees relied on individuals who resided
with or near the beneficiaries to address the beneficiaries’ needs.

We visited four of the six beneficiaries to determine whether their needs were being met. Based
on personal observations and interviews with the beneficiaries, we concluded the beneficiaries’
food, clothing, and shelter needs were being met at the time of our review. For these
beneficiaries, nothing came to our attention that led us to believe the representative payees did
not use the Social Security benefits received for the beneficiaries’ needs.

We were unable to visit the other two beneficiaries. One representative payee who resided in
Canada and represented a beneficiary residing in Massachusetts declined to be interviewed after
confirming the beneficiary’s residence. One representative payee who resided in Puerto Rico
and represented a beneficiary who was residing in New Jersey agreed to allow a visit to the
beneficiary’s residence but did not respond when we called to schedule the visit.

Beneficiary Resident Address in SSA’s Systems
The address and telephone information for OASDI beneficiaries who have representative payees
is maintained in RPS, not the MBR. SSA adds a beneficiary’s address and telephone number to
RPS when it processes an application for a representative payee. Once a representative payee is
appointed, SSA maintains their mailing address and telephone number in the MBR and updates
them when it is informed of any changes. SSA does not include the beneficiary’s address or
telephone number in the MBR once it appoints a representative payee, and it only updates the
beneficiary’s address or telephone number in RPS when the appointed representative payee no
longer lives with the beneficiary.

We found beneficiary addresses and telephone numbers in RPS to be inaccurate. Fourteen of the
16 beneficiaries we were unable to contact received OASDI benefits. As such, we relied on the
beneficiaries’ contact information in RPS. Also, all 60 of the beneficiaries whose representative
payees told us the beneficiaries now live outside the United States with their representative
payees received OASDI benefits. RPS listed their addresses as being in the United States.

On average, SSA had assigned the 89 beneficiaries their most recent representative payee within
the last 6.4 years. Table 2 displays when SSA appointed the 89 representative payees for the
beneficiaries we reviewed, which may have been the last time the beneficiaries’ contact
information was updated in RPS.




Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)   7
                          Table 2: When Representative Payees Were Assigned
                                                          Number of          Number of Representative
                                   Number of
     When Representative                                Representative       Payees Who Reported The
                                  Representative
     Payee Was Assigned                                Payees We Could       Beneficiary Now Resided
                                     Payees
                                                         Not Contact         Outside the United States
    0-1 Year Ago                          4                   0                          1
    1-2 Years Ago                        11                   1                         10
    2-5 Years Ago                        38                   9                         26
Great than 5 Years Ago                   36                   6                         23
             Total                       89                     16                       60

A beneficiary’s eligibility may depend on his/her place of residence. For example, a non-U.S.
citizen who receives OASDI benefits may be ineligible for benefits if he/she lives outside the
United States for more than 6 consecutive calendar months. Also, the state in which a
beneficiary lives affects certain Medicare provisions. Additionally, SSA is required to mail
notices to a beneficiary when there is a change in his/her representative payee status. SSA may
not be able to make the appropriate eligibility decision or properly inform beneficiaries of
changes to their representative payees without accurate address information.

Representative Payee Monitoring Procedures
Representative payees are required to keep records and report how they spend the benefits
received on behalf of beneficiaries they represent. 27 To assist in this responsibility, SSA mails
accounting reports to representative payees. They are required to complete the reports and return
them to SSA. If a representative payee does not respond to, or will not cooperate with, efforts to
obtain and approve an accounting report, SSA may suspend the beneficiary’s payments 28 or
consider a change of representative payee.

SSA should have received accounting reports 29 from 83 of the 89 representative payees within
the 12 months preceding the start of our audit. We found the following.

·      SSA received accounting reports from 73 representative payees.

·      SSA mailed the accounting reports to five representative payees, which they did not return.
       SSA suspended the benefits for three of the five beneficiaries. The remaining two
       representative payees continued receiving benefit payments of $1,906 per month on behalf of
       the beneficiaries they represented.


27
     SSA, POMS, GN 00605.001 B.1. (May 15, 2013).
28
     SSA, POMS, RS 02655.010 G. (March 17, 2008).
29
     We use the term “accounting reports” to refer to the RPR and the FEQ.



Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)    8
·   SSA did not mail accounting reports to five representative payees, as required.

CONCLUSIONS
Of the 89 beneficiaries we reviewed, we were only able to confirm 4 beneficiaries resided at the
U.S. address in SSA’s records and determine their representative payees met the needs of the 4
beneficiaries. Most of the beneficiaries we reviewed were reportedly living with their
representative payees in foreign countries, which contradicted the U.S. address information in
RPS. Additionally, we were unable to locate 16 of the representative payees or their
beneficiaries in our sample. Accordingly, we were unable to determine whether the
representative payees used the benefits appropriately.

We also found that SSA did not mail accounting reports to all representative payees, as required,
and did not always take appropriate follow-up action for representative payees who did not
submit their accounting reports.

RECOMMENDATIONS
Accordingly, we recommend SSA:

1. Take steps to ensure the Agency has accurate contact information for beneficiaries with
   representative payees so it can make accurate eligibility decisions and provide required
   information when there are representative payee status changes.

2. Contact the representative payees of the 16 beneficiaries we could not locate to determine
   where the beneficiaries reside and whether their benefit payments are being used in their best
   interest. SSA should use the results of its attempt to contact these representative payees, and
   any other information it deems appropriate, to determine whether it should also attempt to
   contact the 152 beneficiaries who lived more than 100 miles from an OA office, who we did
   not review.

3. Confirm and update the address information for the 60 beneficiaries who reportedly reside in
   foreign countries with their representative payees.

4. Follow up with the representative payees of the two beneficiaries residing in the United
   States who refused our visits and take any action it deems appropriate to determine whether
   the beneficiaries’ needs are being met.

5. Follow up with the two payees who did not submit accounting reports and send accounting
   reports to the five payees who did not receive one during the audit period.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix B for the full text of the Agency’s
comments.


Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)   9
OTHER MATTER
During our audit, we found that States exchanged information with SSA for 1,738 OASDI
beneficiaries who had a representative payee residing in a foreign country. Most State agencies
exchange beneficiary information with SSA for the administration of various health and human
service assistance programs. Section 1137 of the Social Security Act 30 mandates that States
establish an income and eligibility verification system to administer programs such as Temporary
Assistance for Needy Families, Food Stamps, Medicaid, and SSI State Supplementation. A
continuing beneficiary data exchange request between the State and SSA may indicate the
beneficiary is receiving some type of State benefits. However, our review of 89 of the
1,738 beneficiaries indicated most of the beneficiaries reportedly resided in foreign countries.
The State exchange data indicator on the MBR indicated U.S. residence, which contradicted our
interview results. It may also indicate that beneficiaries are receiving State benefits while living
in foreign countries, which may make them ineligible for the State benefits they receive.




30
     42 U.S.C. 1320b–7.



Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)   10
                                        APPENDICES




Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

·   Reviewed the Social Security Act, applicable Federal regulations, and the Social Security
    Administration’s (SSA) policies and procedures pertaining to representative payees.

·   Reviewed prior Office of the Inspector General and SSA work in the representative payee
    area.

·   Obtained data extracts from SSA’s Master Beneficiary Record (MBR), Supplemental
    Security Record (SSR), and Representative Payee System (RPS). We identified
    1,738 Old-Age, Survivors and Disability Insurance (OASDI) beneficiaries, 12 Supplemental
    Security Income (SSI) recipients, and 22 concurrent beneficiaries who appeared to reside at a
    U.S. address but whose representative payees appeared to reside in a foreign country.

For the OASDI cases, the MBRs of those we selected included a representative payee with a
foreign address and an indicator that a State was exchanging beneficiary information with SSA.
We further identified 207 of the 1,738 OASDI beneficiaries who had a U.S. address in RPS. The
12 SSI recipients and 22 concurrent beneficiaries had U.S. addresses, and their representative
payees had foreign addresses in the SSR.

Our sample for this review was based on geographic location. We sampled 81 of the
207 OASDI beneficiaries and 8 of the 22 concurrent beneficiaries who resided within 100 miles
of an Office of Audit location. 1

·   For each sampled beneficiary, we:

             ü Mailed up to two letters regarding our review to the representative payee.

             ü Called to interview the representative payee to determine the residential address
               of the beneficiary and assess the representative payee’s management of the
               beneficiary’s benefit.

             ü Contacted the beneficiaries when we could not locate the representative payees.

             ü Visited the four beneficiaries who reside in the United States represented by
               representative payees in foreign countries to observe their living conditions.



1
 We would expect that the characteristics of those beneficiaries residing within 100 miles of an OA location would
not differ from those who reside outside 100 miles of an OA location. OA maintains offices in Baltimore,
Maryland; Boston, Massachusetts; New York, New York; Philadelphia, Pennsylvania; Atlanta, Georgia;
Birmingham, Alabama; Chicago, Illinois; Arlington, Virginia; Dallas, Texas; Kansas City, Missouri; Denver,
Colorado; and Richmond, California.



Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)          A-1
            ü Reviewed the Representative Payee Report or the Foreign Enforcement
              Questionnaire to determine whether SSA effectively monitored the beneficiaries
              residing in the United States whose representative payees resided in foreign
              countries.

The principal entity reviewed was the Office of the Deputy Commissioner for Operations. We
conducted our review in New York, New York, from January through May 2013. In addition,
we conducted work in Massachusetts and California.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We tested the data obtained for our audit and determined them to
be sufficiently reliable to meet our objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)   A-2
           Appendix B – AGENCY COMMENTS




                                              SOCIAL SECURITY
MEMORANDUM

Date:      October 1, 2013                                                                 Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Representative Payees Residing in Foreign
           Countries or U.S. Territories Who Represent Beneficiaries Residing in the United States”
           (A-02-13-13048)--INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)   B-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “REPRESENTATIVE PAYEES RESIDING IN FOREIGN COUNTRIES OR
U.S. TERRITORIES WHO REPRESENT BENEFICIARIES RESIDING IN THE
UNITED STATES” (A-02-13-13048)

Recommendation 1

Take steps to ensure the Agency has accurate contact information for beneficiaries with
representative payees so it can make accurate eligibility decisions and provide required
information when there are representative payee status changes.

Response

We agree. We have procedures in place for representative payees to provide us with accurate
contact information for beneficiaries in their care. When we appoint representative payees, we
provide them with their reporting responsibilities. In addition, we provide the reporting
requirements each time we request a representative payee accounting.

Recommendation 2

Contact the representative payees of the 16 beneficiaries we could not locate to determine where
the beneficiaries reside and whether their benefit payments are being used in their best interest.
SSA should use the results of its attempt to contact these representative payees, and any other
information it deems appropriate, to determine whether it should also attempt to contact the
152 beneficiaries who lived more than 100 miles from an OA office, who we did not review.

Response

We agree. We plan to contact the 16 payees who did not respond to OIG’s request to confirm
they are still functioning as representative payees. As appropriate, we will appoint new
representative payees. We plan to complete our actions by the first quarter of calendar year (CY)
2014.

Of 152 beneficiaries who live more than 100 miles from an Office of Audit, in fiscal year 2014,
we plan to review those cases that our Office of Quality Performance identified as having the
highest risk of misuse. Based on the results of our investigation, we will appoint a new
representative payee if needed.




Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)   B-2
Recommendation 3

Confirm and update the address information for the 60 beneficiaries who reportedly reside in
foreign countries with their representative payees.

Response

We agree. We plan to implement this recommendation in the first quarter of CY 2014.

Recommendation 4

Follow up with the representative payees of the two beneficiaries residing in the United States
who refused our visits and take any action it deems appropriate to determine whether the
beneficiaries’ needs are being met.

Response

We agree. We plan to implement this recommendation in the first quarter of CY 2014.

Recommendation 5

Follow up with the two payees who did not submit accounting reports and send accounting
reports to the five payees who did not receive one during the audit period.

Response

We agree. We plan to implement this recommendation in the first quarter of CY 2014.




[In addition to the information listed above, SSA also provided technical comments which have
been addressed, where appropriate, in this report.]




Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)   B-3
Appendix C – MAJOR CONTRIBUTORS
Tim Nee, New York Audit Director

Christine Hauss, Audit Manager

Vincent Huang, Program Analyst

William Kearns, IT Specialist

Brennan Kraje, Statistician




Payees Residing in Foreign Countries who Represent Beneficiaries in the United States (A-02-13-13048)   C-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   ·   OIG news                                  In addition, we provide these avenues of
   ·   audit reports
                                                 communication through our social media
                                                 channels.
   ·   investigative summaries
   ·   Semiannual Reports to Congress                Watch us on YouTube
   ·   fraud advisories                              Like us on Facebook
   ·   press releases
                                                     Follow us on Twitter
   ·   congressional testimony
   ·   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
